Audit Report




OIG-09-028
Management Letter for the Fiscal Year 2008 Audit of the
Department of the Treasury’s Financial Statements


January 8, 2009




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              January 8, 2009


            MEMORANDUM FOR PETER B. MCCARTHY
                           ASSISTANT SECRETARY FOR MANAGEMENT
                           AND CHIEF FINANCIAL OFFICER

            FROM:                 Joel A. Grover /s/
                                  Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Management Letter for the Fiscal Year 2008 Audit of the
                                  Department of the Treasury’s Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury’s (Department) Fiscal Year 2008 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP (KPMG), an independent certified public accounting firm, performed an audit of
            the financial statements of the Department as of September 30, 2008 and for the
            year then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and other operational matters that were identified during the
            audit, but were not required to be included in the audit report.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5768, or a
            member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
            (202) 927-5789.

            Attachment
DEPARTMENT OF THE TREASURY
      FISCAL YEAR 2008
      Management Letter

      November 17, 2008
                           DEPARTMENT OF THE TREASURY
                                     Fiscal Year 2008
                                  Management Letter Report



                                      Table of Contents

                                                                               Page

Transmittal Letter                                                                1

       08-01: President’s Budget Reconciliation (Repeat Comment)                  3
      08-02: Financial Reporting Standards for Treasury’s Component Entities
             (Repeat Comment)                                                     5
      08-03: Mortgage Backed Securities (MBS) Purchase Reconciliations            7
      08-04: Disaster Recovery Procedures (Repeat Comment)                        8
      08-05: Database-level User Access                                          10


Exhibit 1 – Status of Prior Year Management Letter Comments                      11
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036


November 17, 2008

Inspector General
U.S. Department of the Treasury
Washington, D.C.

We have audited the consolidated financial statements of U.S. Department of the Treasury
(Department/Treasury) as of and for the year ended September 30, 2008, and have issued our report
thereon dated November 17, 2008. Our report indicated that we did not audit the amounts included
in the consolidated financial statements related to the Internal Revenue Service (IRS), a component
entity of the Department. The financial statements of the IRS were audited by another auditor
whose report has been provided to us.

In planning and performing our audit of the consolidated financial statements of the Department in
accordance with auditing standards generally accepted in the United States of America, we
considered the Department’s internal control over financial reporting (internal control) as a basis
for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control. Accordingly, we do not express an opinion on the effectiveness of
the Department’s internal control.
During our fiscal year (FY) 2008 audit of the Department’s consolidated financial statements, we
and the other auditor noted certain matters involving internal control and other operational matters
that we considered to be significant deficiencies under standards established by the American
Institute of Certified Public Accountants (AICPA). A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control deficiencies, that adversely
affects the entity’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than inconsequential
will not be prevented or detected by the entity’s internal control. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected
by the Department’s internal control.

Our consideration of internal control was for the limited purpose described above and would not
necessarily identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. In our Independent Auditors’ Report dated November 17, 2008, we reported
the following matters involving internal control and its operations that we and the other auditor
considered to be significant deficiencies.
    •   Financial Systems and Reporting at the IRS (Repeat Condition)
    •   Financial Management Practices at the Departmental Level (Repeat Condition)
    •   Controls Over Foreign Currency Transactions




                                  KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                  a member of KPMG International, a Swiss cooperative.
We consider the significant deficiency related to Financial Systems and Reporting at the IRS, noted
above, to be a material weakness. Detailed findings and recommendations to address the above
significant deficiencies are not repeated within this document.

Although not considered significant deficiencies, we noted certain matters involving internal
control and other operational matters that are presented in the attachment for your consideration.
These comments and recommendations, all of which have been discussed with the appropriate
members of the Department’s management, are intended to improve internal control or result in
other operating efficiencies. The matters presented in this letter do not include internal control or
operational matters that have been presented to the management of the Department’s offices or
operating bureaus that were audited separately by other auditors.

Exhibit 1 provides the status of the 11 comments included in our management letter arising from
our FY 2007 audit. We have not considered the Department’s internal control since the date of our
report.

We appreciate the courteous and professional assistance that Department personnel extended to us
during our audit. We would be pleased to discuss these comments and recommendations with you
at any time.

The Department’s written response to our comments and recommendations has not been subjected
to the auditing procedures applied in the audit of the consolidated financial statements, and
accordingly, we express no opinion on it.

This communication is intended solely for the information and use of the management of the
Department, the Department’s Office of Inspector General, the Office of Management and Budget,
the Government Accountability Office, and Congress and is not intended to be, and should not be,
used by anyone other than these specified parties.

Very truly yours,




                                                 2
                             FISCAL YEAR 2008 COMMENTS

08-01: President’s Budget Reconciliation (Repeat Comment)
The Department of the Treasury’s (Treasury/Department) Office of Performance Budgeting and
Strategic Planning (OPBSP) prepares the annual reconciliation of Treasury’s Budgetary Resources,
Outlays, Offsetting Receipts, and Obligations Incurred reported in the President’s Budget (PB) to
comparable information contained in Treasury’s Statement of Budgetary Resources (SBR) (PB
Reconciliation) for disclosure in Treasury’s consolidated financial statements as required by
Statement of Federal Financial Accounting Standards (SFFAS) No. 7, Accounting for Revenue and
Other Financing Sources. The PB Reconciliation is then provided to the Department’s Office of
Accounting and Internal Control (AIC) for final review and approval prior to inclusion in the
Department’s consolidated financial statements. Our review of the PB Reconciliation prepared for
inclusion in the FY 2008 consolidated financial statements revealed the following:

   •   Sufficient management reviews were not performed on documentation provided to support
       the PB Reconciliation by either OPBSP or AIC.

   •   Initial documentation provided to support the PB Reconciliation did not fully support
       reconciling amounts reported in the PB Reconciliation. For example, the detailed analyses
       prepared by OPBSP for each Treasury component of what was reported in the PB
       compared to what was reported in the respective component’s Statement of Budgetary
       Resources was either incorrect in some instances or not provided. In addition, extracts
       from the PB for amounts used in the reconciliation were not provided that would directly
       link back to amounts in the detailed analysis provided by OPBSP in support of the PB
       Reconciliation.

In response to questions raised, the OPBSP provided additional documentation, revised the PB
Reconciliation on several occasions to incorporate auditor-requested changes, and assisted with
resolving the issues identified.
Further improvements are needed to improve the process of preparing the reconciliation and
expediting its review. Although differences identified were ultimately fully explained and
supported, the initial supporting documentation provided was not comprehensive enough to
eliminate the detailed discussions needed to understand the Department’s unique budget
transactions and how they contribute to the PB Reconciliation.

Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements
(OMB Circular No. A-136), provides guidance for preparing the note on Reconciliation of the SBR
to the PB. Section II.4.2 of OMB Circular No. A-136, states “Agencies should discuss any
material changes to budgetary information subsequent to the publication of the audited SBR with
their auditors to determine if restatement or note disclosure is necessary. At a minimum, any
material differences between comparable information contained in the SBR and the actual
information presented in the Budget of the United States Government must be disclosed in the
notes to the SBR.”




                                               3
In addition, GAO’s Standards for Internal Control in the Federal Government 1 (GAO Internal
Control Standards) states “Internal control and all transactions and other significant events need to
be clearly documented, and the documentation should be readily available for examination. The
documentation should appear in management directives, administrative policies, or operating
manuals and may be in paper or electronic form.”
The adequacy of review issues discussed above occurred mainly because existing OPBSP and AIC
senior staff work loads exceed what can be reasonably conducted by senior staff. Therefore,
insufficient time is available to be spent on supervisory reviews and other financial management
activities. This has resulted in increased reliance being placed on the audit of the PB Reconciliation
to identify errors and omissions.
Further, Treasury relies on the knowledge and skills of key experienced OPBSP officials to prepare
the PB Reconciliation. However, because the PB Reconciliation is performed at the Department
level, the lack of intimate knowledge of component transactions contributed to initial
misclassification of budgetary resources for reconciliation purposes. This led to additional efforts
to obtain documentation and increased time spent on the PB Reconciliation that, had the PB
Reconciliation been performed by each component, could have been minimized.
08-01 Recommendations

We recommend that the CFO with input from the Director, OPBSP, and the Director, AIC:

(1) Update policies and procedures to include the details of the required documentation that is
    necessary to support the PB Reconciliation, as well as review and approval procedures
    required by authorized Treasury officials.

(2) Instruct all Treasury components to reconcile their respective SBR amounts to amounts
    included in the PB, and provide the operating procedures needed for the PB Reconciliation to
    components. This will streamline the process, provide better detail and clarification of
    reconciling items, and remove the significant time demands on already stretched Departmental
    staff. Once received, OPBSP and AIC should only consolidate the data. At the component
    level, management should classify amounts reported in the SBR and PB by reconciling
    budgetary sources to fund symbols, along with an explanation for each reconciling item, and
    also explain what funds are included in the line item. Components should be instructed to
    utilize the President’s Budget Appendix Program and Financing Schedule amounts for the
    reconciliation. By reconciling all balances, Treasury will be able to better analyze the material
    differences between the SBR and the actual amounts reported in the PB.




1
 U.S. Government Accountability Office, Standards for Internal Control in the Federal Government, GAO/AIMD-00-
21.3.1, November, 1999.




                                                       4
Management Response

The Department agrees with these recommendations. AIC and OPBSP will update the PB
reconciliation policies and procedures to ensure that proper preparation, review, approval and
documentation requirements are addressed.

We believe the PB reconciliation process should be streamlined to the maximum extent possible.
AIC/OPBSP reviewed the reconciliation procedure in FY 2008. AIC and OPBSP developed a
CFO Vision standardized template to prepare the Department’s reconciliation worksheet. This
worksheet identifies bureau and component entity differences. By automating the initial
reconciliation process, OPBSP and AIC staff focused more time on explaining differences and
getting supporting documents from bureaus. The template developed and used for FY 2008 was
complicated. It was not sufficiently complete to provide all detailed information needed to support
the reconciliation. Accordingly, it was only useful in providing accurate information on Expired
and Treasury Managed Accounts. Subsequent meetings between OPBSB and KPMG produced a
template that if generated by CFO Vision would adequately provide supporting documentation for
the President's Budget Reconciliation and facilitate the review by OPBSP and AIC. We plan on
exploring the possibility of automating this template in FY 2009.

We will also consider involving the bureaus and other components in the reconciliation process to
the extent practicable. In most cases, the bureaus’ data will always be identical to the PB data; it is
just certain unique situations which cause the reconciliation complications. For example, the FMS
data in the PB are the responsibility of five different accounting offices, one of those outside of
Treasury. Bureaus in this situation will need to create additional worksheets to show what they are
reconciling to, which may make it overly cumbersome for these bureaus to perform complete
reconciliations. Thus, we need to work with the bureaus to determine the most efficient approach
to the overall reconciliation process.

08-02: Financial Reporting Standards for Treasury’s Component Entities (Repeat Comment)
The Department’s consolidated financial statements are prepared in conformity with accounting
principles prescribed by the Federal Accounting Standards Advisory Board (FASAB), the
accounting standards-setting body for the Federal Government, as recognized by the AICPA in
October 1999. However, certain Treasury component entities prepare their financial statements in
accordance with accounting standards prescribed by the Financial Accounting Standards Board
(FASB), the private sector standards-setting body, since the FASAB has allowed entities that
issued financial statements prior to October 1999 using FASB accounting to continue to do so.
These component entities include the Bureau of Engraving and Printing, the Office of Thrift
Supervision, the Exchange Stabilization Fund, the Federal Financing Bank, and the Community
Development Financial Institutions Fund.
The use of a combination of generally accepted accounting principles (GAAP) by the Department
and its component entities complicates the preparation of the Department’s consolidated financial
statements since additional information required for Federal GAAP reporting must be developed,
mapped, and submitted to the Department’s data warehouse by component entities, and reviewed
for compliance with Federal GAAP and overall reasonableness by Department accounting




                                                  5
management. In addition, the separately issued financial statements of the component entities using
FASB accounting principles do not adequately portray the importance of the budgetary process as
it relates to Federal entities. Consequently, the concept of “presents fairly” for those entities does
not adequately convey the significant budgetary disclosures required by Federal GAAP.
Private sector GAAP does not contemplate budgetary reporting, and therefore, components using
this basis of accounting do not prepare the SBR, although this statement is an integral part of the
Department’s consolidated financial statements, and must be prepared regardless of whether the
component receives appropriations from the U.S. Government or not. Moreover, information
reported in the Department’s SBR must be reconciled to enacted amounts in the President’s Budget
and disclosed in the notes to the Department’s consolidated financial statements. Considerable
additional preparation is required to develop and report this data at the Department level for
components using private sector GAAP.
Additionally, private sector GAAP does not provide sufficient information regarding the costs of
programs and activities. The Statement of Net Cost required by Federal GAAP requires that costs
and offsetting earned revenues be presented by responsibility segments, with net costs identified
for each of the segments, in order to provide more meaningful information to evaluate the
operating results of major activities.
Further, inconsistencies exist in how certain costs are reported by entities using private sector
GAAP. For example, Federal GAAP requires that nonreimbursed costs paid by the Office of
Personnel Management for retirement plans be recognized by the receiving entity as an imputed
cost in order to report the full cost of operations. Since private sector GAAP does not provide
guidance for the reporting of such imputed costs, these costs are being reported inconsistently, or
not at all, by the Department’s component entities.
This matter has been reported since FY 2004, and has not been resolved. The continued use of
private sector GAAP by certain Treasury component entities decreases the usefulness of
information reported by these entities for users of Federal financial statements and complicates the
preparation of the Department’s consolidated financial statements.

08-02 Recommendations

We recommend that the CFO, with input from the Director, AIC, work with those Treasury
bureaus following FASB reporting standards to achieve conformance so that all reporting entities
within the Department prepare their financial statements in accordance with Federal GAAP in
order to strengthen and standardize financial accounting and reporting throughout the Department.
If statutorily required to report on a different basis of accounting, then a separate set of financial
statements should be prepared by these entities to meet such requirements.

Management Response

The Federal Accounting Standards Advisory Board (FASAB) has issued an exposure draft entitled
The Hierarchy of Generally Accepted Accounting Principles, Including the Application of
Standards Issued by the Federal Accounting Standards Board which addresses this




                                                  6
recommendation. This exposure draft proposes to clarify that a federal entity that is preparing
GAAP-based financial statements for the first time is required to implement FASAB standards
unless the entity clearly demonstrates that the needs of its primary users would be best met through
the application of FASB standards. The Department is required to provide FASAB exposure draft
comments by February 2, 2009.

This statement also proposes to clarify GAAP for those federal entities that are currently applying
financial accounting and reporting standards issued by the Financial Accounting Standards Board
(FASB). This clarification is intended to address concerns that moving the GAAP hierarchy into
the accounting standards would cause a sudden and dramatic change in practice for federal entities
that apply FASB GAAP. The Board will determine whether additional reporting should be required
of federal entities that are currently applying FASB accounting standards as part of its separate
project on reporting by federal entities that primarily apply standards issued by the FASB, formerly
referred to as the “Appropriate Source of GAAP” project.

While AIC will continue to encourage Treasury-reporting entities to conform to FASAB standards,
we are also monitoring FASAB’s efforts to clarify this issue so that appropriate guidance is
communicated to the affected Treasury reporting entities.

08-03 Mortgage Backed Securities (MBS) Purchase Reconciliations

As a result of the Housing and Economic Recovery Act of 2008, the Office of Financial
Management (OFM), with budgetary support from OPBSP was involved in various financial
transactions unique to the Department. These transactions were processed in a shortened time-
frame causing various control deficiencies related to documentation of policies and procedures and
financial reporting. One transaction type involved the purchase of Government Sponsored
Enterprise MBS totaling $3.3 billion. We noted that while MBS purchases that were traded and
settled as of September 30, 2008 were ultimately reconciled to the information reported by the
Custodian (a qualified financial institution designated to be the depository and financial agent), the
reconciliation process was not well documented and there were no written procedures due to the
timing of the transactions. In addition, initial documentation provided to support the MBS
reconciliation was either incomplete or incorrect.

FMFIA requires “internal accounting and administrative controls of each executive agency shall be
in accordance with standards prescribed by the Comptroller General.” The GAO Internal Control
Standards state, “Internal control should generally be designed to assure that ongoing monitoring
occurs in the course of normal operations. It is performed continually and is ingrained in the
agency’s operations. It includes regular, management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.”
The Treasury Financial Manual (TFM), Chapter 3400, “Accounting for and Reporting on Cash
and Investments held Outside of the U.S. Treasury,” Section 3420 states, “Treasury requires that
agencies develop policies, systems, and procedures to ensure that cash and investment activity in
Treasury and non-Treasury accounts is conducted in the following manner:




                                                  7
•   To maintain full accountability and reconciliation control over funds owned by or in the
    custody of the Federal Government or any Federal Government officer, employee, or agent;
•   To comply with applicable statutes regarding the deposit and/or investment of such funds; and
•   To support Governmentwide collateral, accounting, and reporting requirements, as described in
    the TFM.”
In response to questions raised, OFM officials provided additional documentation, revised the
MBS reconciliation as needed, and assisted in resolving the issues identified.

08-03 Recommendations

We recommend that the CFO with input from the Directors, OFM and OPBSP:

(1) Ensure that staff responsible for the reconciliation between the MBS assets reported by the
    Department and the MBS assets held by and reported by the Custodian is fully trained and that
    adequate resources are provided.

(2) Ensure that Treasury implements a formal reconciliation process including appropriate
    documentation as described in Section 3420 of the TFM, as it is likely that Treasury will
    continue to increase its exposure to additional asset purchases during FY 2009.

(3) Continue to meet and communicate with the Custodian to ensure all reconciling items are
    cleared in a timely manner, and to ensure Treasury management has a firm understanding of the
    reconciling items.

Management Response

The Department agrees with these recommendations, and actions are underway to address them.
OFM is primarily responsible for performing these reconciliations, and is working with both the
Custodian and the Asset Managers to learn more about the availability of information and to
provide further training to responsible staff. Resource requirements are also being reviewed.

A thorough reconciliation was performed as of the end of FY 2008, although not without having to
rework the reconciliation as we learned more about the transactions and obtained additional
information. However, due to these MBS transactions occurring so late in the fiscal year, there was
insufficient time to develop formal reconciliation procedures and documentation requirements.
Formal reconciliation procedures and documentation requirements are being developed in FY
2009.

08-04: Disaster Recovery Procedures (Repeat Comment)

A Disaster Recovery Plan (DRP) has not yet been fully developed and implemented for two key
systems of the Department, the Treasury Information Executive Repository (TIER) and the Chief




                                                8
Financial Office Vision (CFO Vision) financial systems, responsible for the Department’s
consolidated financial statement reporting activities.

National Institute of Standard and Technology (NIST) Special Publication (SP) 800-34,
Contingency Planning Guide for Information Technology Systems, states that “Information
Technology (IT) and automated information systems are vital elements in most business processes.
Because these IT resources are so essential to an organization’s success, it is critical that the
services provided by these systems are able to operate effectively without excessive interruption.
Contingency planning supports this requirement by establishing thorough plans and procedures and
technical measures that can enable a system to be recovered quickly and effectively following a
service disruption or disaster.” NIST SP 800-34 also states that “IT systems are vulnerable to a
variety of disruptions, ranging from mild (e.g., short-term power outage, disk drive failure) to
severe (e.g., equipment destruction, fire). Many vulnerabilities may be minimized or eliminated
through technical, management, or operational solutions as part of the organization’s risk
management effort; however, it is virtually impossible to completely eliminate all risks.
Contingency planning is designed to mitigate the risk of system and service unavailability by
focusing effective and efficient recovery solutions.”

Additionally, NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook
(Chapter 11) states “Contingency planning directly supports an organization's goal of continued
operations. Organizations practice contingency planning because it makes good business sense. To
avert potential contingencies and disasters or minimize the damage they cause, organizations can
take steps early to control the event. Generally called contingency planning, this activity is closely
related to incident handling, which primarily addresses malicious technical threats such as hackers
and viruses. Contingency planning involves more than planning for a move offsite after a disaster
destroys a data center. It also addresses how to keep an organization's critical functions operating in
the event of disruptions, both large and small. This broader perspective on contingency planning is
based on the distribution of computer support throughout an organization.”

Should a disaster occur without a documented DRP for TIER and CFO Vision, the Deputy Chief
Financial Officer’s (DCFO) office’s ability to restore and/or continue operations related to these
systems may be significantly delayed.

08-04 Recommendations

We recommend that the DCFO’s office:

(1) Finalize the TIER and CFO Vision DRP.

(2) Test the DRP annually in accordance with the guidance outlined in NIST SP 800-34.

(3) Update the DRP following any changes made to these systems to ensure that the current
    version is available for recovery.




                                                  9
Management Response

Management agrees with these recommendations. The Department has installed the TIER and
CFO Vision software on the disaster recovery servers (as well as for all FARS applications). A
conceptual framework has been developed for the monthly refresh of Treasury data and software
code and the annual testing of the disaster recovery site. Treasury’s team is documenting the
procedures and will test them to ensure that they work as anticipated.

08-05 Database-level User Access
The Oracle® database management system that supports TIER has not been configured to log
database-level user access.
NIST SP 800-53, Revision 2, Recommended Security Controls for Federal Information Systems,
states “The organization regularly reviews/analyzes information system audit records for
indications of inappropriate or unusual activity, investigates suspicious activity or suspected
violations, reports findings to appropriate officials, and takes necessary actions.”
By not logging the actions of individuals, including those with system administration-level
privileges, the potential exists for security-related incidents to go unnoticed and uninvestigated,
thus allowing potential unauthorized users to continue attempting to access system resources.

08-05 Recommendation
We recommend that the DCFO’s office configure the TIER Oracle database to log database-level
access and actions. At a minimum, this logging should include access attempts, both successful
and unsuccessful, and include database administrator and system-level accounts (i.e., sys, system,
and sysman).

Management Response

Management agrees with this recommendation. The DCFO’s Office will work with DO’s CIO and
the FARS team to develop procedures for the monitoring of the logs of database-level access and
actions. The FARS team will need to develop the policy, plans, and procedures for reviewing the
logs and taking appropriate actions to address any issues that are identified. Resource requirements
will need to be estimated and staff will need to be assigned to support the function. The budgetary
impact will need to be developed and included in the FARS budget estimate.




                                                10
                                                                                EXHIBIT 1

                          DEPARTMENT OF THE TREASURY
                                       Fiscal Year 2008
                                   Management Letter Report
                      Status of Prior Year Management Letter Comments



Prior Year Comments                                Current Year Status

07-01   President’s Budget Reconciliation          This comment has not been corrected and is
                                                   repeated in the current year as comment
                                                   # 08-01.
07-02   Financial   Reporting   Standards      for This comment has not been corrected and is
        Treasury’s Component Entities              repeated in the current year as comment
                                                   # 08-02.
07-03   Disaster Recovery Procedures               This comment has not been corrected and is
                                                   repeated in the current year as comment
                                                   # 08-04.
07-04   Documentation     of     Application-Level This comment has been corrected.
        Changes
07-05   User Account Passwords                     This comment has been corrected.

07-06   Systems Security Plan                      This comment has been corrected.
07-07   Password Configurations                    This comment has been corrected.
07-08   Plan of Action and Milestones Reporting    This comment has been corrected.
07-09   User Access Policies and Procedures        This comment has been corrected.
07-10   Segregation of Duties                      This comment has been corrected.
07-11   Individual User Accountability             This comment has been corrected.




                                              11
